          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Management Controls over the
National Nuclear Security
Administration's Ability to Maintain
Capability of the TA-18 Mission




OAS-M-07-02                February 2007
                              Department of Energy
                                   Vdashingtori, GC 2 0 5 8 5

                                   February 20, 2007

MEMORANDUM FOR                                                     FOR DEFENSE PROGFKMS

FROM:
                      1 Assistant hspector General
                             for Performance Audits
                           Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Management Controls over
                          the National Nuclear Security Administration's Ability to
                          Maintain Capability of the TA- 18 Mission"

BACKGROUND

The mission of Technical Area 18 (TA-I 8) at the National Nuclear Security
Administration's (NNSA) Los Alamos National Laboratory (Los Alamos) was to conduct
nuclear criticality experiments and hands-on training in nuclear safeguards, criticality
safety and emergency response. TA-18 was the only facility in the United States capable
of performing these nuclear criticality experiments needed to validate safety evaluations,
establish limits for operations involving special nuclear material (SNM), and provide
criticality training. Experiments were performed on five one-of-a-kind criticality
machines and required a diverse set of SNM and highly skilled technical personnel.

To consolidate SNM in a more secure facility, in December 2002, NNSA announced its
decision to relocate the TA-18 mission to the Device Assembly Facility (DAF) at the
Nevada Test Site. NNSA planned to construct a new Criticality Experiment Facility
(CEF) within DAF to house this mission. To minimize the mission impact of the
relocation, the IWSA Administrator directed program officials to prepare a Closure Plan
and establish interim criticality operations capability at Los Alamos and DAF as soon as
mid-Fiscal Year (FY) 2005 and to terminate TA-18 operations by FY 2008.

Because of its importance to security and safety, we initiated this audit to determine
whether NNSA minimized the impact of the TA-I 8 relocation on mission operations.

RESULTS OF AUDIT

Although its goal was to establish interim operations as early as FY 2005, NNSA had not
maintained the capability to conduct unique TA-18 criticality operations and is at risk of
delays in re-establishing this capability. Specifically, four of the five criticality machines
were not moved to DAF as planned but remain at Los Alarnos where they are being
disassembled and refurbished. The fifth machine is being decommissioned.
Additionally, 17 of the 20 criticality experts have left the mission.

NNSA did not establish interini criticality operations capability as planned because in
1;Y 2005, officials determined that thc associated cost and time required would ncgativel y
i~iil~acl
       higlicl. priority relocation a c t i ~ ~ ~ t iincludiilg
                                                      es.       I-cmovingSNM l'roiii rI'A-l S and
construction of CEF. Completion of CEF, now scheduled for the first quarter of
FY 201 0, and related activities may allow NNSA to re-establish its criticality operations.

While management had a reasonable basis to delay establishing interim operations, we
concluded that full resumption of criticality operations by FY 201 0 is at risk because
NNSA had not adequately planned to replace, train, and certify the staff needed to
conduct criticality experiments once CEF is completed. Although Los Alamos prepared
a staffing plan in September 2006, full execution of the plan will likely require at least
four years because some new staff may require a four-year apprenticeship before they can
meet the unique requirements of the mission. In addition to the apprenticeship period,
there is a lead time of 18-24 months to meet the requirements of the Human Reliability
Program and to obtain a Department of Energy Q Clearance. Based on these
requirements, new recruits may not be fully certified to operate the criticality machines
until at least FY 201 1, a year after CEF is scheduled to become operational.

The need to maintain the pre-requisite human capital skills to achieve mission objectives
is not unique to the TA-18 mission relocation. As the Office of Inspector General
recognized in our report "Management Challenges at the Department of Energy"
(DOEIIG-748, December 13,2006), human capital management is an ongoing challenge
that will require the attention of Department management in the years to come.

Until criticality operations are resumed, NNSA cannot fully support the mission of the
Nuclear Criticality Safety Program (NCSP) and other activities important to national
security. For example, NNSA was unable to perform activities scheduled for FY 2005 in
support of the NCSP and the Emergency Response Program. Other priority experiments
in support of the NCSP and other national security programs scheduled during FYs 2006
through 2010 will also not be completed due to the loss of the criticality capability. The
Defense Nuclear Facility Safety Board has also expressed concern about the risk of
losing criticality expertise due to inactivity or attrition and the subsequent inability to
perform critical experiments once the CEF becomes operational.

NIUSA recognized the importance of re-establishing the nuclear criticality and safety
training missions. On May 23, 2006, Los Alamos was directed to remove the criticality
machines from TA-18; complete refurbishment activities on the machines at an alternate
Los Alamos location; and once the refurbishment is complete, immediately transfer the
machines, along with assigned personnel to DAF. Fiscal Year 2006 funding support for
the other activities related to establishing some interim operations at DAF has also been
provided. These actions represent positive steps toward re-establishing mission
capability at DAF. However, prompt action is needed to ensure that a fully trained and
certified staff is available to carry out the unique functions of the criticality experiments
machines, once the CEF is completed.

MANAGEMENT REACTION

Management agreed with the recommendation. Management stated that Los Alamos
completed a staffing plan at the end of FY 2006 that was consistent with NNSA's
planning. Management also cited actions taken to minimize the impact of the
TA- 18 I-clocationon CI-iticalilyopcrations, including funding hands-on-criticalily safcty
training in FY 2006. However, management commented that it was misleading to state
that Los Alamos staff would not be fully certified until FY 201 1. Management
comments are summarized on page 4 and are included in their entirety in Appendix 3.

While we acknowledge that management took a number of actions to minimize the
impact of TA-18 relocation on criticality operations, these actions did not provide the
hands-on-training needed by a staff to qualify and become certified to operate the specific
machines that comprise the TA-18 mission. We also acknowledge that the preparation of
a staffing plan is a positive step toward resuming criticality operations. However, as
noted in the staffing plan, "while certain positions require completion of specific training
classes, others may require as many as four years of training and hands-on-experience
before the staff can become qualified and/or certified." Accordingly, we believe that it is
essential that the staffing plan be implemented without delay to ensure the resumption of
criticality operations vital to national security.

Attachment

cc: Deputy Secretary
    Acting Administrator, National IVuclear Security Administration
    Chief of Staff
    Director, Policy and Internal Controls Management, NA-66
REPORT ON MANAGEMENT CONTROLS OVER THE NATIONAL
NUCLEAR SECLlRlTY ADMINISTRATION'S ABILITY TO MAINTAIN
CAPABILITY OF THE TA-I8 MISSION

TABLE OF
CONTENTS


  Maintaining Criticalitv Mission Capability

  Details of Finding .......................................................................................................    1

  Recommendation ...................................................................................................... .3

  Comments ................................................................................................................. ..4

  Appendices

  1. Objective, Scope, and Methodology ................................................................... ..5

  2. Related Audit Reports. ......................................................................................... .6

  3. Management Comments .....................................................................................                 ..7
MAINTAINING CRITICALITY M ISSlON CAPABILITY

Mission Capability   The National Nuclear Security Administration (IVIVSA) had not
                     maintained the capability to conduct the unique Technical Area 18
                     (TA-18) criticality operations during the transition to the Device
                     Assembly Facility (DAF) and is at risk of delays in re-establishing
                     this capability. Specifically, as of September 2006, the five TA-18
                     criticality machines were not operational. Four machines were
                     being disassembled and refurbished at Los Alamos National
                     Laboratory (Los Alamos) while the fifth machine was being
                     decommissioned. Further, 17 of the 20 experts conducting TA-18
                     criticality experiments and training on the machines had left the
                     mission.

                                            Criticality Machines

                     To expedite interim criticality operations, the TA-18 Closure Plan
                     called for NNSA to iliG\..C four machines to D M by the summer of
                     2005, two of which were to be operational by mid-Fiscal Year
                     (FY) 2006. Additionally, the fifth machine was to remain
                     operational at TA-18 to support nuclear criticality training courses
                     in FY 2006. At the time of this audit, however, the four machines
                     scheduled for delivery to the DAF had not been moved as called
                     for in the Closure Plan. According to current estimates, the
                     machines will not be moved to DAF until early 2008,
                     approximately three years later than originally planned. Los
                     Alarnos personnel advised that all four machines will remain at Los
                     Alamos for disassembly, decontamination, and installation of new
                     components before being transferred to DAF.

                     The goal to keep the fifth machine operational at TA-18 during the
                     transition period also was not met. In a January 2006 report to
                     Congress, NNSA stated that no appropriate location at Los Alamos
                     could be identified that allowed sufficient distance from the public
                     to support operations of the machine. As a result, the Department
                     of Energy (Department) planned to initiate a separate National
                     Environmental Policy Act action to assess the impacts of relocating
                     the fifth machine to another Department site.

                                               Human Capital

                     NNSA also has not maintained the human resource skills necessary
                     to carry out TA-18's unique nuclear criticality mission. Since
                     NNSA began the TA-18 move, the number of personnel with the
                     expertise to perform the TA-18 criticality operations has declined
                     from 20 to 3. NNSA has hired one replacement. However, since
                     its criticality machines are not operational, NNSA has been unable


Page 7                                                               I-letails of Finding
                               to provide the required biennial hands-on training necessary for its
                               remaining personnel to maintain their certifications as criticality
                               machine operators or provide required training to the one new hire.

                                              Re-establishing Criticality Capability

                               The NNSA Deputy Administrator for Defense Programs
                               recognized the importance of re-establishing the criticality mission.
                               On May 23, 2006, he directed Los Alamos to remove the criticality
                               machines from TA-18; complete refurbishment activities on the
                               machines at an alternate Los Alamos location; and, once the
                               refurbishment is complete, immediately transfer the machines,
                               along with assigned personnel to DAF. The Deputy Administrator
                               also provided FY 2006 funding support for the other activities
                               related to establishment of some interim operations at DAF.

Mission Resurr~ption           Due to higher priority relocation activities, including moving the
                               special nuclear materials (SNM) from TA-18 and constructing the
                               Criticality Experiment Facility (CEF), NNSA did not pursue
                               establishing interim criticality operations capability in FY 2005 as
                               originally scheduled. NNSA officials determined that criticality
                               operations capability would resume at DAF upon completion of
                               CEF, now scheduled for the first quarter of FY 2010.

                               However, NNSA's ability to re-establish its criticality mission
                               capability is at risk because it has not adequately planned to have
                               the staffing resources available to conduct criticality experiments
                               once CEF is completed. Although eighty-five percent of the
                               trained personnel with the pre-requisite TA- 18 criticality machine
                               certifications are no longer working in this program, Los Alamos
                               did not prepare a staffing plan to hire, train, and certify new
                               recruits until the end of FY 2006. NNSA may not fully resume
                               criticality experiments once CEF is completed in FY 2010 since
                               some new staff may require a four-year apprenticeship to meet the
                               unique requirements of the mission. In addition to the
                               apprenticeship period, there is a lead time of 18-24 months to meet
                               the requirements of the Human Reliability Program and to obtain a
                               Department of Energy Q Clearance.




-
-   -   --   ----   -- - - -   -                       ---



Page 2                                                                          (?stalls of F ~ n d ~ n g
                        NNSA management indicated that it had a small cadre in NNSA
                        and within contractor organizations to support criticality training
                        and experiments. Specifically, there are generic skills and
                        proficiencies common to all reactors and the approach to critical
                        operations that can be maintained through a combination of
                        activities at Sandia National Laboratories, Lawrence Livermore
                        National Laboratory and foreign sites. For example, NNSA
                        developed an agreement with Russia to participate in their
                        criticality experiments in order to provide criticality training to its
                        remaining staff. However, management acknowledged that these
                        activities do not constitute certification to operate TA-18's one-of-
                        a-kind criticality machines that will be moved to CEF.



Impact on               r\,'NSA cannot currently support the mission ceeds of the Xuclear
Mission Needs           Criticality Safety Program (NCSP) and other activities important to
                        national security. For example, NNSA did not perform activities
                        scheduled during FY 2005 in support of the NCSP and the
                        Emergency Response Program. Additionally, priority experiments
                        to support the NCSP and other national security programs that
                        were scheduled during FYs 2006 through 2010 will not be
                        performed as a result of the loss of this capability. A Los Alamos
                        official at DAF also advised us that the loss of capability has
                        resulted in slippages in work to support the development of
                        radiation detection monitors for the Department of Homeland
                        Security.

                        The Defense Nuclear Facility Safety Board has also expressed
                        concerns about the risk of losing criticality expertise due to
                        inactivity or attrition and the subsequent inability to perform
                        critical experiments once CEF becomes operational. Specifically,
                        the criticality machines being moved to CEF at Nevada not only
                        provide hands-on training for Nuclear Criticality Safety engineers,
                        but also the expertise needed to perform critical experiments; both
                        are indispensable components of a robust NCSP infrastructure.


RECOMMENDATION          We recommend that the NNSA Deputy Administrator for Defense
                        Programs ensure that the staffing plan is in~plen~ented  in a timely
                        manner to provide the pre-requisite number of trained and certified
                        personnel to carry out the unique functions of the criticality
                        experiments machines, once CEF is con~pleted.



   .             - ~-                                  -.
                                                        .-             -- --.                 .. .-




Page 3                                                                     Recommendation
MANAGEMENT               Management agreed with the recornmendatioil and stated that
REACTION AND             Los Alamos had completed a staffing plan at the end of
AUDITOR COMMENTS         FY 2006 that was consistent with NNSA's planning.
                         Management also cited actions it had taken to minimize the impact
                         of the TA-18 relocation on criticality operations, including
                         providing funding to the Lawrence Livernlore National Laboratory
                         for hands-on-criticality safety training.

                         Management also indicated that it was misleading to state that Los
                         Alamos recruits would not be fully certified until FY 201 1. The
                         current CEF integrated schedule show Los Alamos staff writing
                         operating procedures for criticality machines as early as March
                         2007. Criticality machine operators are expected to start their
                         training on these new procedures in November 2007 and to fully
                         demonstrate the procedures during FY 20 10. Management's
                         verbatill1 coillilleilts are iilcluded in iheir entirety at Appendix 3.

                         While Los Alamos prepared a staffing plan in September 2006, full
                         execution of the plan will likely require at least four years. As
                         noted in the staffing plan, "while certain positions require
                         completion of specific training classes, others may require as many
                         as four years of training and hands-on-experience before the staff
                         can become qualified andlor certified." Based on these
                         requirements, new recruits may not be fully certified until at least
                         FY 201 1, a year after CEF is scheduled to become operational.

                         We also acknowledge that management took a number of actions
                         to minimize the impact of the TA-18 relocation on criticality
                         operations, including providing funding for hands-on-criticality
                         safety training. However, these actions do not provide the training
                         and operational experience needed to be qualified on the TA-18
                         criticality machines since certification is machine specific.
                         Accordingly, we believe that it is essential that the staffing plan be
                         implemented without delay to ensure the resumption of criticality
                         operations vital to national security.




     ~~~~~~~-
           -~   ~   ..        -   ~
                                                      ~          ~   -   ~   ----
                                                                             p   p   ~
                                                                                     ~   .




F:lyo 4                                                                                      Comments
OBJECTIVE         The objective of our audit was to deternline whether the National
                  Nuclear Security Administration (NNSA) met its goal to minimize
                  the impact of the TA-18 relocation on the criticality operations
                  mission.


SCOPE             The audit was performed between November 2005 and June 2006.
                  Audit work was performed at NNSA Headquarters; Los Alamos
                  National Laboratory (Los Alamos); the Los Alamos Site Office;
                  Nevada Site Office; and Nevada Test Site.


METHODOLOGY       To accomplish the audit objective, we:

                         Reviewed the TA-18 Closure Plan, Staffing Plan and key
                         memoranda;

                         Lnterviewed key personnel at Headquarters, Los Alamos,
                         the Los Alamos Site Office, Nevada Site Office and
                         Nevada Test Site;

                         Toured the Design Assembly Facility and Technical Area
                         18;

                         Reviewed laws and regulations; and,

                         Reviewed results of prior audits and reviews.

                  The audit was conducted in accordance with generally accepted
                  government auditing standards for performance audits and
                  included tests of internal controls and compliance with laws and
                  regulations to the extent necessary to satisfy the objective of the
                  audit. Accordingly, we assessed the significant internal controls
                  and performance measures established under the Government
                  Performance and Results Act of 1993 and found that measures
                  specifically related to establishing TA- 18 interim operations had
                  not been established. Because our review was limited, it would not
                  necessarily have disclosed all internal control deficiencies that may
                  have existed at the time of our audit. We determined that controls
                  over computer-processed data were not integral to meeting the
                  objectives of our audit. NNSA management waived an exit
                  conference.



--   -        .   pp                    --- --



Page 5                                        Objective, Scope, and hllethodology
                                  Related Audit Reports


The Office of hspector General has previously reported on improvements needed in the
management of other nuclear-related projects at the Los Alamos National Laboratory (Los
Alamos), including:

       The Stabilization of Nuclear Materials at Los Alamos National Laboratory (DOEIIG-
       0659, August 2004). The Department of Energy had made some progress in stabilizing
       the most hazardous fissionable materials; however, stabilization had not been accelerated
       to the level anticipated. The Department missed interim milestones and project tasks,
       which may further delay stabilization and increase risk that stabilization will not be
       completed by 20 10. Delays occurred because (1) the Department had not fully funded the
       stabilization effort at Los Alamos; (2) Los Alamos had not made full use of available
       project management tools; and, (3) performance measures and incentives were not
       incorporated into the Los Alamos contract. By extending the schedule until 2010, the
       Department will incur an estimated $78 million in additional costs to stabilize these
       dangerous materials.

       Transuranic Waste at Los Alamos National Laboratory (DOEIIG-0673, February 2005).
       The Department will not meet its commitments for removing transuranic waste from Los
       Alamos. Based on current projections, the Department will complete removal of all high-
       risk waste in October 2005, at the earliest, and we estimate it is unlikely to complete
       removal of the legacy transuranic waste before 2014 - four years beyond the commitment
       date. The Department will not meet the accelerated waste disposal goals because (1) Los
       Alamos had not consistently followed approved waste processing procedures; (2) of the
       July 2004 Laboratory site-wide stand down; and, (3) the Department did not supply the
       mobile waste processing equipment because of its concern regarding the Laboratory's
       ability to use the equipment in a timely manner. Unless the Department accelerates
       processing rates, the total cost of completing the waste disposition project could increase
       by over $70 million.




---                          -                      ..-                   -   -



Page G                                                                  Related Audit Reports
Appendix 3



                                               Department of Energy
                                      National Nuclear Security Adrninist~mtion
                                                 Washington, DC 20585
                                                     December 11, 2006




               MEMORANDUM FOR                         Georgc W. Collard
                                                      Assistant [nspector General
                                                        for Performance Audits

               FROM:                                  Micliael C. Kane      ~&'y&
                                                      Associate Admin~strator /
                                                                                                                      -

                                                        for Management and Administration

                                                     Comments to TA-I 8 Draft Report;
                                                     AOGLAOI 212005-39334


               The National Nuclear Security Administration (NNSA) appreciates the
               opportunity to review the Inspector General's draft report, "Management
               Controls over the National Nuclear Security Administration's Ability to
               Maintain Capability of the TA-18 Mission." We understand that this audit
               was conducted to determine whether NNSA met its goal to minimize tlie
               impaci o f the TA-18 relocation on the criticality operations tnission. Wc
               liurtlier understand that based on audit work that the lG is recommending
               that a slalfiny plan be prepared and implemented.

               NNSA understands the report and the corresponding recommendation. It
               is impo~tantto note that while NNSA has oversight responsibilities, under
               contrac!or zssarsnce s:'stcms !hc cciltraatcr is rcailirsd Lo inaintain 1lunia11
               resourcc skills and to fulfill contract requirements. Los Alamos Natio~ial
               Labol-atory's TA-18 Mission Relocation/Criticality Experiments Facility
               Staffing Plan that answers tlie 1Ci's recommendation is attached.
               .l'hat plan is consistent with NNSA's planning, but also relies 011other
               programs. NNSA does have additional comments related to the report

               Where the report states that: "NNSA did r~olr?/ir~i)r~i:e             llje i))~pcrc.f oJ'l11e
               T,.l- 18 r.clort~liorzo)r r)-iticcrlit~~     opet-ntions . .. S~~ecfic-oIb:,fo~tr-of fhc
               rt-iticnlir~,                I ~ ~ 1S1 0 1 )iiolje(f10 DAF us plur~tierlhut r-et?r~litr
                            I I I ( I C ~ ~weye                                                          nt Los
               .4lninos ~t,I~e)-e  tlie,t*(11-eheiicg riisosseinhleci anti 1-efio-hished . . .
               AtMitior~nllj~.    17 ofll7e 20 o.ificnlifj~       aperls lir~veIeji [he I J ~ ~ S S ~ O"I IAS
                                                                                                           S.
               discilssed with the Defensc Nuclear Facilities Safety Board, the Nuclear
               Criticality Safety Program Manager provided funding 10 the Lawrence
               Liverniore National Laboratory for hands-on criticality safety training in
               FY 2006. The Criticality Experiments Facility (CEF) project, Critical
               Decision 2, was based on the four criticality experiment machines being




  _   -   --            --                                                                    --      -           -       . -




 Page 7                                                                                     rvlanagemei~tComments
Appendix 3 (continued)




             disassembled and decontaminated for "cold testing" with the new macl~iile
             control con~ponentsat Los Alamos. This work is being perfon-ned as the
             Device Assembly Facility (DAF) modifications are bcing performed in
             order to accept "beneficial occupancy" of these machines. Also, the DAF
             is currently finalizing the approvals for Los Alamos to perform source
             repackaging and incasurcment emergency preparedness for two key items:
             the Beryllium-Reflected Plutoniuin (BeRP) ball and the Neptunium
             Sphere. This will then stand up the Material Control and Accountability
             program at the DAF and provide training for operators that have moved to
             Nevada to operate the relocated TA-18 mission.

             The report hrther states that, "Although nlunagement had a reasonable
             basis to delaji establishing interitn operations, we concluded that full
             r e s ~ ~ n ~ pofcriricali[v
                            ~ion          operations by FY 201 0 is at risk because NNSA
             hctd not udequi~telyplrz~~ned    to replace, train, and cerrlfj, strrff lo conduct
             cr~liculi~v  e.xperinlstlrs once CEF is co~ljpleted.Specijic~~   I I y , IVIVSAis tr o~
             scl7erh~ledto colnplete a stafjittgplan until early 17Y 2007 rIeraili17g how ir
             lwill replnce rhe experrs who lefi the nlission .... Based 011 the FY 2007
             conzpletion date, new aecruits would not be fully certzjied until at least
             FY 201 1, a yeat- after CEF is scheduled to become operatio~~ul.In July   "

             2006, Los Alamos prepared a Transition Plan that addresscd the relocation
             and rcstructuring of the CEF iilstitutional organizations projcct
             management functions in conjunction with the DAF constructioil
             activities. The T1.ansition Plail identified key projcct pcrsonncl resident in
             Nevada, in addition to five Los Alanlos employees from the Advanced
             Nuclear Technology Group, who inoved to Nevada to support the interim
             operations such as the Nuclear Material Handling and Measure~neilts
             projcct, in ~ l - i i i the
                                     h repacliaging and cllicrgcnij. preparcdncss rcfcrcnccd
             above is performed. We believe that it is misleading to state that Los
             Alamos recruits would not be fully certified until FY 201 1 when the
             current CEF integrated schedule shows Los Ala~nosstaff starting to write
             operating procedures for the criticality machines as early as March 2007.
             The criticality,machine operators will start their training on thesc new
             procedures in November 2007 and will fully demonstrate these procedures
             during the Operational Readiness Revicw at the DAF which is expected to
             be completed in FY 2010.

              Should you have any questions about this response, please contact Richard
              Speidel, Director, Policy and Internal Controls Managcmcnt.

              Attachment

              cc:    Thomas P. D'Agostino, Deputy Administrator for Defense Prograins
                     Ed Wilmot, Manager, Los Alarnos Site Office
                     Jay Nomlan, Manager, Nevada Site Office
                     David Boyd, Senior Procurement Executive
                     Karen Boardman, Director, Service Center
                                                                    IG Report No. OAS-M-07-02

                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of h~spectorGeneral have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your ccmments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                       attached to the repori.
